                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 112070048                                                                    Page 1 of 1



         This case was opened under a proactive review looking at SBIR Phase II awards in which the PI
         may not have been primarily employed by the grantee, as required in the SBIR requirements.
         We investigated the PI 1 of a small business2 that has received three NSF STTR awards. 3 We
         reviewed financial documentation, timesheets and payroll records for the primary Phase II award
         granted to the business in 2009. While we determined that the PI worked for the business at least
         50% of his time during the award period, our review found that the PI diverted funds to the
         university4 associated with the award without prior program office approval. The PI also did not
         notify the NSF Property Manager when approved permanent equipment was purchased under the
         award, as required by the award terms and conditions. 5 An appropriate warning was sent to the
         PI.

         Accordingly, this investigation is closed.




NSF OIG Form 2 (11/02)
